—*5»

USSC #20-7653
IN THE
SUPREME COURT OF THE UNITED STATES

JEFFREY TODD DENTON
vs.
JOHN DAVIDS, WARDEN

PETITION FOR REHEARING
This matter is before this Court on the Petitioner’s request for a Rehearing pursuant to
USCS R 16.3 which states in relevant parts: Whenever the Court denies a petition for a writ of
certiorari, the Clerk will prepare, sign, and enter an order to that effect. The order of denial will
not be suspended pending disposition of a petition for rehearing except by order of the Court
or a Supreme Court Justice. As such, this Petition for Rehearing is being appropriately and
timely filed in this Court by sending it as institutional expedited legal mail within 25-days after
the Court issued its ruling on June 07, 2021 to be reviewed by this Court for the reasons outlined
below:
The Petitioner understands that this most extraordinary relief will not be granted unless
there is a reasonable likelihood of the Court's reversing its previous position and granting
certiorari. See Richmond v Arizona 434 US 1323, 98 SC 8 (1977) (Rehnquist, J., in chambers).
In the instant case, the Petitioner was convicted in a state court and sentenced to 40 to 60
years. The State Supreme Court affirmed his convictions. Following his convictions in the
state’s highest court, the Petitioner did not seek a Writ of Certiorari nor did he seek relief by
way of a Wirt of Habeas Corpus, rather, the Petitioner in the instant case sought permission
1

from the Sixth Circuit Court of Appeals asking the Court to allow him to file this Writ of Habeas
Corpus in the Federal District Court based on (a) a Brady violation and (b) a claim that evidence
was withheld by the Prosecution will show by clear and convincing evidence that the Petitioner
in this case is innocent and is requesting a suspension of the court's order denying certiorari
review for further consideration on (1) prosecutorial misconduct and (2) actual innocence on
the grounds that, if proven, there is a reasonable likelihood the court will reverse its previous
decision denying his petition for certiorari for the following reasons.
IMMUNITY FOR POLICE OFFICERS, PROSECUTORS, AND JUDGES
As an initial matter, the subject of immunity is unrelated to the petitioner case because
it was not raised in the state and federal courts but is still relevant to this case and to the entire
United States of America for this Court to settled the doctrine of immunity across the board and
establish new procedures that are new standards for correcting Police Officers, Prosecutors,
and Judges errors that are subject to these old and outdated immunity standards.
For example, in 1986 this Supreme Court addressed entitled to qualified immunity
regarding Police Officers in Malley v Briggs 475 US 335; 106 SC 1092 (1986) stating that a
State Police Officer sought review of a decision of the First Circuit Court of Appeals which
reversed the District Court ruling that a State Police Officer was entitled to a directed verdict in
the action that the Arrestees brought in a Civil Complaint. The Appellate Court found that the
State Police Officer was not entitled to absolute immunity.
In Malley v Briggs. the State Police Officer was in charge of a wiretap investigation in
which the arrestees, based on two intercepted phone calls, the State Police Officer obtained
warrants for the arrestees on drug-related charges and the charges were subsequently
dismissed. This Supreme Court affirmed the Appellate Court's decision, which found that the
State Police Officer was not entitled to absolute immunity. This Court declared that the State
2

Police Officer was subject to qualified immunity under an objective reasonableness
standard and that only where a warrant application lacked indicia of probable cause so
as to render its existence unreasonable would immunity be lost. This Supreme Court
affirmed the ruling that the State Police Officer was not entitled to absolute immunity and that
the State Police Officer was subject to qualified immunity under an objective reasonableness
standard under which immunity would be lost only where a warrant application lacked indicia
of probable cause as to render its existence unreasonable. This Court concluded by saying,
the police, we therefore believe that in a case such as this, the Court should expressly hold that
the decision by a judge is entitled to substantial evidentiary weight and a more restrictive
standard will discourage police officers from seeking warrants out of fear of litigation and
possible personal liability.
The Petitioner in this case states that this type of ruling in 1900’s to the present date
inspire and motivate police officers to do anything they wanted to do under this outdated
standards of qualified immunity.
In 1919, this Supreme Court addressed entitlement to absolute immunity regarding
Prosecutors in Burns v Reed 500 US 478; 111 SC 1934 (1991) stating that a prosecutor is
entitled to absolute immunity in a civil complaint because a prosecutor's appearance as a
lawyer for the state in a probable cause hearing in which the prosecutor examines a witness
and successfully supports an application for a search warrant, because (1) like witnesses.
prosecutors, and other lawyers, are absolutely immune for making false and defamatory
statements in judicial proceedings, so long as the statements were related to the
proceedings, for eliciting false or defamatory testimony from witnesses; (2) such immunity
extended to any hearing before a tribunal which performed a judicial function: (3)
absolute immunity is justified by concerns of policy, because (a) the prosecutor's actions in
3

question involve the prosecutor's role as advocate for the state rather than the prosecutor's role
as administrator or investigative officer, (b) appearance at a probable cause hearing is
associated with the judicial phase of the criminal process and is connected with the initiation
and conduct of a prosecution, particularly where the hearing occurs after arrest, and (c)
absolute immunity serves the policy of protecting the judicial process, as there is a
substantial likelihood of annoying litigation that might have an untoward effect on the
independence of the prosecutor; and (4) the judicial process is available as a check on
prosecutorial actions at a probable cause hearing.
For purposes of liability for damages, this Court stated that a prosecutor has not met his
burden of showing that the relevant factors justify an extension of absolute immunity to the
prosecutorial function of giving legal advice to the police in the investigative phase of a criminal
case, and thus the prosecutor is entitled to only qualified immunity for giving such advice,
because (1) no support has been identified in either History or American Common Law for
extending such absolute immunity to prosecutors; (2) advising the police at the investigative
phase is not so intimately associated with the judicial phase of the criminal process as to require
absolute immunity; (3) even if there is some risk of burdensome litigations, such concern
justifies absolute prosecutorial immunity only for actions that are connected with the
prosecutor's role in judicial proceedings; (4) although the absence of absolute immunity
may cause prosecutors to consider their advice more carefully, (a) where an official could
be expected to know that the official's conduct would violate statutory or constitutional rights,
the official should be made to hesitate, (b) the qualified immunity standard is sufficiently
protective, and (c) it would be inappropriate to allow prosecutors absolute immunity for giving
legal advice, but to allow police officers only qualified immunity for following the advice; (5)
absolute immunity is not so expansive as to include any action by a prosecutor in some
4

way related to the ultimate decision whether to prosecute; and (6) although there are several
checks other than civil litigation to prevent abuses of authority by prosecutors, the judicial
process, is one of the most important checks, will not necessarily restrain out-of-court activities
by a prosecutor that occur prior to the initiation of a prosecution, such as the activity of providing
legal advice to the police, particularly where a suspect is not eventually prosecuted.
The Petitioner in this case states that this type of ruling, from the 1900 to the present
date encourage prosecutors to do anything they wanted to do under this outdated standards of
absolute immunity.
For over a century, this Supreme Court has addressed entitlement to judicial immunity
regarding judges in Forrester v White 484 US 219; 108 SC 538 (1988) and Philippines v
Pimentel 553 US 851; 128 SC 2180 (2008) stating that although Congress has not undertaken
to cut back the judicial immunities which have been recognized by the United States Supreme
Court, however, this Court did stated that it should be at least as cautious in extending those
immunities as the Court, has been, when dealing with officials whose peculiar problems the
court knows less well than the problems of judges, and at the same time, this Court stated it
may not ignore compelling reasons that may well justify broader protections for judges than
for some other officials. This Court then stated that suits against judges for damages are not
the only available means through which litigants can protect themselves from the
consequences of judicial error, most judicial mistakes, or wrongs are open to correction through
ordinary mechanisms of review, which are largely free of the harmful side effects associated
with exposing judges to personal liabilities. In the attempt to draw the line between truly judicial
acts, for which immunity from suits is appropriate, and acts that simply have happened to
been done by judges, immunity, as in other contexts, is justified, and defined by the functions
such immunity protects and serves, not by the person to whom immunity attaches, likewise,
5

there is no precise and general definition of the class of acts which are entitled to judicial
immunity, there is an intelligible distinction between judicial acts and the administrative,
legislative, or executive functions that judges may on occasion be assigned by law to perform.
As a class, judges have long enjoyed a comparatively sweeping form of immunity, that
are not perfectly well defined. Judicial immunity originated, in medieval times, as a device for
discouraging collateral attacks and thereby helping to establish appellate procedures as the
standard system for correcting judicial error. This Court found that judicial immunity was
the settled doctrine of the English Courts for many centuries, and has never been denied
in the courts of this country. Besides protecting the finality of judgments, this Court
concluded that, judicial immunity also protected judicial independence by insulating
judges from vexatious actions prosecuted by disgruntled litigants.
The Petitioner in this case states that this type of ruling, for many centuries protect judges
from every judicial error they do in our American Courts under this outdated standard of judicial
immunity.
For all of the reasons stated above, this Court should do a precise and general definition
of the class of acts which are entitled to qualified, absolute, and judicial immunity to protect
American Citizens from worrisome actions by Police Officers, Prosecutors, and Judges with
new procedures as a standard system to protect the people in this great country from these
types of errors in our criminal justice system.
The Petitioner will now address two grounds that, if proven, there is a reasonable
likelihood this court will reverse its previous decision denying his petition for certiorari based on
the State of Michigan, Genesee County Prosecutor’s actions in his case under the Qualified
immunity standards for the following reasons.

6

BRADY VIOLATION
To establish a Brady v Maryland 373 US 83; 83 SC 1194 (1963) the Supreme Court held
that the suppression by the prosecution of evidence favorable to an accused violates due
process where the evidence is material either to guilt or to punishment, irrespective of the good
faith or bad faith of the prosecution. See Wilson v Mitchell 498 F3d 491, 512 (6th Cir 2007)
(quoting Brady ibid 373 US at 87).

The material which must be disclosed under Brady

encompasses impeachment evidence as well as exculpatory evidence. Wilson ibid 498 F3d at
512 citing United States y Bagley 473 US 667, 676; 105 SC 3375 (1985). To establish a Brady
violation, the Petitioner must establish: (1) the prosecution suppressed or withheld evidence (2)
such evidence was favorable to the defense and (3) the suppressed evidence was material.
See United States v Dado 759 F3d 550, 559-60 (6th Cir 2014).
V/

First, the lower courts disregard several important facts: (1) that the Petitioner was
arrested on January 09, 1999, however, the police released the Petitioner from custody without
providing him with any information on why he was being released; (2) both the Genesee County
Prosecutor’s Office and Genesee County Police Department knew that on January 09, 1999
that a state required medical report was on file and in their possession from the Hurley Medical
Center prepared by Doctor Gomez relating to the primary examination of the victim indicating
that there were no signs that the victim had been repeatedly penetrated in her vagina and anus
on the same date this crime allegedly happened, (3) both the Genesee County Prosecutor’s
Office and Genesee County Police Department also knew that on January 09, 1999 the
Petitioner was removed from the resident where he was living with the victim and her Mother
and there was no further contact with the victim; (4) on February 17,1999, for unknown reasons,
the victim was seen by Norman Carter Director of the Child Evaluation Clinic at McLaren
Regional Medical Center who examined the victim and prepared a medical report for the state
7

i.e. the prosecution, identifying that the victim’s hymen and anal rings revealed repeated sexual
penetrations; (5) if this is true, it occurred after the Petitioner was arrested on January 09, 1999
and after the victim was examined on January 09,1999 by Doctor Gomez at the Hurley Medical
Center; (6) three months later, on March 11, 1999, the Petitioner was re-arrested based on the
examination report prepared by Doctor Gomez; and (7) The Petitioner contends that Doctor
Gomez medical report was willfully and intentionally suppressed by the prosecutor because it
had the potential of (a) changing the outcome of the Petitioner’s Jury Trial and (b) would have
changed the Petitioner’s defense theory by showing the jury that Doctor Gomez Medical Report
demonstrates that the victim was not sexually assaulted on January 09, 1999. Second, part of
this argument relates a prosecutor's appearance as a lawyer for the state, which this court
stated: That prosecutors are lawyers and are absolutely immune for making false and
defamatory statements in judicial proceedings. Third, the same can be said regarding
Police Officers where this Court stated in relevant part:
Police Officer was subject to qualified immunity under an objective reasonableness
standard under which immunity would be lost only where there was a lacked indicia of
probable cause as to render its existence unreasonable. The same standard of objective
reasonableness that is applied in a suppression hearing, also defines, qualified immunity,
to an officer whose request for an arrest warrant but purportedly caused an
unconstitutional arrest. Only where the arrest is so lacking in indicia of probable cause as
to render its existence unreasonable will the shield of immunity be lost.
The lower courts ignored the fact that Sergeant Scott Sutter, the officer in charge of this
case, advised the victim Mother to take her daughter to the Hurley Medical Center to get any
evidence that her daughter was sexually assaulted. This report provided by the Hurley Medical
Center clearly indicates that the Doctor Gomez found no evidence that the victim was sexually
assault because her hymen and anal rings were grossly intact at the time of her examination
on January 09, 1999. The victim even testified that she only went to one hospital and was
only seen by one doctor and the prosecution never asked the victim to identify the hospital
8

and the doctor who examined her. However, the one person who knew the contents of both
medical reports was the prosecutor who listed Doctor Carter as a witness who testified at the
Petitioner Jury trial that his findings were consistent with repeated virginal and anal penetration
"A

and did not list Doctor Gomez to testify about his findings as to his examination on the day
[January 09,1999] this alleged incident took, where the Petitioner was arrested and released
on the grounds that Doctor Gomez found were no signs that the victim had been repeatedly
penetrated in her vagina and anus.
To establish a Brady violation, in this case, the Petitioner clearly has established: (1) the
prosecution suppressed or withheld evidence contented in Doctor Gomez medical report from
the defense (2) that Doctor Gomez medical report was favorable to the defense and (3) Doctor
Gomez suppressed medical report was material.

More importantly, the Genesee County

Prosecutor’s actions in his case was accomplished under the qualified immunity standards
were this Court stated the [prosecutors] are absolutely immune for making false and
defamatory statements in judicial proceedings. This standard has put more innocence people
in prison, like that in the present case, due to the unethical activities by Police Officers and
Prosecutors in our criminal justice system because they are entitled to qualified immunity to
protect them from American citizens aggravating actions where such immunity would be lost
only where there was a lacked indicia of probable cause as to render its existence
unreasonable. These facts are relevant to this case and to the entire United States of America
for this Supreme Court to settled the doctrine of immunity across the board for Police Officers,
Prosecutors, and Judges, and establish new procedures with new standards for correcting
Police Officers, Prosecutors, and Judges errors that are subject to these old and outdated
immunity standards.

9

In the present case, if this Court were to remove these Prosecutorial errors and consider
the victim's first examination by Doctor Gomez Medical Report that validated evidence
favorable to the Petitioner in his defense that the victim was not sexually assaulted on January
09, 1999, this Court would then be obligation to Grant the Petitioner any and all relief he is
entitled too. For the reasons outlined herein, this Court should order the Petitioner’s Petition
for a Writ of Certiorari, which was denied, is suspended pending disposition on whether (1) the
Genesee County Prosecutor’s Office and Police Department withheld critical evidence that was
favorable and material to the Petitioner’s defense and (2) was it accomplished by the Genesee
County Prosecutor Office and the Police Department under the qualified immunity that are
subject these old and outdated standards.

ACTUAL INNOCENCE
There is one factor in this case, this court should Court should take into consideration,
that the petitioner has never pursued a Writ of Certiorari to this United States Supreme Court
where two standards may be applied in this case on the questions presented.
First, AEDPA's statutes of limitation prescribe when state prisoners may apply for writs
of habeas corpus in federal court, however, the statutes of limitation are not jurisdictional, and
do not require courts to dismiss claims as soon as the clock has run. See Perkins v McQuiggin
670 F3d 665 (6th Cir Mich 2012) quoting Day v McDonough 547 US 198, 208; 126 SC 1675
(2006). Likewise, in Souter v Jones 395 F3d 577, 602 (6th Cir 2005) the Sixth Circuit Court of
Appeals held that where an otherwise time barred habeas petitioner can demonstrate that it is
more likely than not that no reasonable juror would have found him guilty beyond a reasonable
doubt the petitioner should be allowed to pass through the gateway and argue the merits of his
constitutional claims. The gateway of an actual innocence claim, this Court aforesaid, does not
10

require the granting of the writ but instead permits the petitioner to present his original habeas
petition as if he had not filed it late. Id. Souter 395 F3d at 596. Second, as the Sixth Circuit
recognized in Souter an exception to timeliness should be made in the rare and extraordinary
case where a petitioner can demonstrate a credible claim of actual innocence.

Indeed, a

credible claim of actual innocence functions as a wholly separate and superseding
circumstance that acts as an equitable exception to the statute of limitations. See e.g. Lee v
Lampert 653 F3d 929, 933 at n.5 (9th Cir 2011).
However, federal jurisprudence also demonstrates that such claims are rare, constituting
a narrow class of cases implicating a fundamental miscarriage of justice. As unwavering in
Schlup v Delo 513 US 298, 314-315; 115 SC 851 (1995), this Supreme Court stated that in
order to credibly claim actual innocence a petitioner must show that it is more likely than not
that no reasonable juror would have convicted him in the light of the new evidence. Id. Schlup
513 US at 327. Moreover, any such new evidence presented must be reliable, whether it
consists of exculpatory scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence that was not presented at trial. Id. Schlup 513 US at 324. Thus a
petitioner must present more than an existential possibility of innocence that rests on
speculation or present arguments that simply revisit minor discrepancies in trial
testimony or evidence. A petitioner who can present new and reliable evidence of actual
innocence under these exacting standards should be entitled to a review of his claims of
constitutional error without the untimeliness of his petition standing in the way is reviewed de
novo.
In the Present case, the Petitioner claims that the prosecution violated Brady v Maryland
373 US 83; 83 SC 1194 (1963) when the prosecutor failed to turn over to his defense contented
of Hurley Medical Center Nurse Report and Doctor Gomez Medical Report. The Prosecutor
11

received a copy of these reports, Sergeant Sutter received a copy of these reports, however,
the Petitioner and his Defense Counsel did not. The Petitioner is also not denying that Defense
Counsel elicited testimony from a prosecuting witness, Sergeant Sutter, who testified:
Q. Sergeant Sutter, did you receive any sort of report from Hurley Medical Center?
A. Yes, I did.
Q. Okay, and does your report also reflect what the results of that visit to Hurley were?
A. Yes, it does.
Q. Were they negative or positive as to evidence of sexual abuse?
A. Well, I’m not a doctor, but there were no abnormalities.
Q. What doctor performed the test?
A. Doctor Gomez.
The lower courts assumed that because of this line of questioning defense counsel had
Doctor Gomez medical report in his possession is a misrepresentation of the true facts. While
the lower courts acknowledge that Doctor Gomez medical report was never admitted into
evidence by the prosecution. The lower court disregarded the fact that defense counsel’s line
of questioning was illustrated from the information contained in the Petitioner’s presentencing
investigation report on page-3, which stated in relevant parts:
On January 09, 1999, Ashley Mclaren was taken to Hurley Medical Center Emergency Room
where she was examined for possible sexual assault. The Hurley Report indicated no signs
of vaginal or rectal disruption. However, on February 17, 1999, Ashley was examined at
McLaren Regional Medical Hospital and that examination revealed disruption of hymenal
and anus tissue consistent with repeated vagina and anal penetration.
Contrary to the lower courts, the words revealed, exposed, discovered, or disclosed are
meritless meanings under Brady v Maryland 373 US 83; 83 SC 1194 (1963) because the true
contents of Doctor Gomez medical report were never given to the defense by the prosecution
on why Doctor Gomez examination revealed no disruption or disorder to the victim’s hymenal

12

• A*

and anus tissue. As such, the only word in a Brady violation is whether Doctor Gomez medical
report was suppressed, meaning concealed, hidden, or repressed by the Prosecution.
In Bousley v United States 523 US 614, 622 118 SC 1604 (1998) the court stated that
an actual innocence claim may even overcome a prisoner’s failure to raise a constitutional
objection on direct review. In House v Bell 547 US 518; 126 SC 2064 (2006) the court reiterated
that a prisoner’s proof of actual innocence may provide a gateway for federal habeas review of
a procedurally defaulted claim of a constitutional error. Thus, the Petitioner has demonstrated
by clearly and convincing evidence a colorful claim that he is actually innocence of the crime
for which he was convicted of and has met both Schluo and Brady standards by demonstrating
that the victim’s initial examination was (1) performed on January 09, 1999; (2) by Doctor
Gomez and (3) DoctonGomez medical report was suppressed because it demonstrated his
innocence because this medical report indicated that Doctor Gomez saw no evidence of a
sexual assault.
For the reasons outlined herein, this Court should order the Petitioner’s Petition for a
Writ of Certiorari, which was denied, is suspended pending disposition on whether (1) the
Genesee County Prosecutor’s Office withheld critical evidence that was favorable and material
to the Petitioner’s defense and (2) determine whether this act was accomplished by the
Genesee County Prosecutor Office under the qualified immunity that are subject these old
and outdated standards.
RELIEF SOUGHT
For the reasons stated herein, this court should Grant the Petitioner’s Petition for
Rehearing based on (1) the standards set forth by this court in Schluo v Delo and Brady v
Maryland because the state withheld critical evidence that was favorable and material to the
Petitioner’s defense and (2) this court should also naturalize these old standards of immunity

13

and revise new standards of immunity that will still afford Police Officers, Prosecutors, and
Judges immunity and summarize other standards that will protect American Citizens from
Police Officers, Prosecutors, and Judges who abuse their immunity in our criminal justice
system, or in the alternative, grant such other relief as this Court deems just and fair.
S

I

ED BY:

7/

UJl1*
DE

j

mm47
2021

DATED:
ty

CERTIFICATION OF SERVICE
The petitioner certifies that he served the within Petition for Rehearing on counsel for the
respondent by enclosing a copy thereof in an envelope with postage prepaid and addressed
too:
1.

The Office of the Michigan Attorney General
Appellate Division
PO BOX: 30217
And:
Lansing, Michigan 48909

2.

The Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
By deposing them in the Michigan Department of Corrections Institutional Mailing system

on

r, 9 9

, 2021 and further certifies that all parties required to be served have

been served.
SUBMITTED BY:
TODP DENTON #288247
DATED:

14

!

2021

